                       Pension Benefit Guaranty Corporation
                                                     Office of Inspector General
                                      1200 K Street, N.W., Washington, D.C. 20005-4026


                                                                   September 2, 2014

The Honorable Michael R. Turner
U.S. House of Representatives
2239 Rayburn House Office Building
Washington, DC 20515

I am writing in response to your June 25, 2014 request that our office conduct an inquiry
into the Pension Benefit Guaranty Corporation’s (PBGC) delay in processing the final
benefit determinations for plan participants in the Delphi Retirement Program for
Salaried Employees (the Salaried Plan). Your request was based on concerns raised by
PBGC’s responses to Freedom of Information Act (FOIA) requests from Salaried Plan
participants that contained no explanation or justification for the continued delays in
completing the final benefit determinations. You also expressed concern that the delays
will continue to impose unnecessary hardship on the Salaried Plan participants. I thank
you and the members of the Ohio congressional delegation for the opportunity to provide
assistance on this matter and for your patience.

Specifically, you requested that PBGC Office of Inspector General (OIG):

   1. Identify the reasons for the lengthy delays in the process of calculating final
      benefit determinations for participants in the Delphi Retirement Plan for Salaried
      Employees.
   2. Determine the status of any preliminary work done by the PBGC to complete the
      five documents requested in the January 7, 2013 and April 9, 2014 FOIA requests.

In conducting our inquiry, we obtained information from PBGC about the delays and the
completion of work necessary to issue final benefit letters for the Delphi Salaried
participants. Though the plan was trusteed in 2009 and progress in plan processing was
delayed, PBGC’s current schedule for completing the required work is aggressive with
cascading dependencies – that is, one activity must be completed before the next can
begin. This schedule has virtually no cushion for any delay. Further, it is being done in
an environment of significant operational change and performance of other high-priority
activities. OIG believes there are substantial risks to PBGC meeting this schedule.

Our Inquiry

We initiated a formal inquiry into this matter and contacted Philip Langham, PBGC’s
Chief of Benefits Administration and Director, Benefits Administration and Payment
Department (BAPD). We initially met with Mr. Langham to discuss your request and
BAPD’s processing activities for the Salaried Plan; we then asked him for a written
response. In this letter, we share with you PBGC’s information, our evaluation actions,
and our observations based on past audit work and BAPD’s corrective actions to address
weaknesses we identified.

                                                                                      LTR-2014-13
Letter to Congressman Turner
Delays in Delphi Salaried Plan
Page 2 of 8


PBGC assured us that they are focused on producing accurate asset evaluations and
participant benefit calculations, adding resources and accelerating actions where possible.
BAPD is trying to improve its practices to avoid the problems with poor quality control
and contractor oversight of the plan asset audits the OIG identified in their processing of
the United Airlines and National Steel plans.1

PBGC has stated that it will begin to issue benefit determination and detailed supporting
statements to participants in October 2015 (see timeline below). The agency
acknowledged that this is a delay from the normal timeframe of three to four years for
plan processing, and noted that processing a large complex plan such as Delphi can be six
to seven years.

Table 1 - Timeline for BLD Issuance and Completion of the Delphi Salaried Plan

    DATE                ACTIVITY
    October 2014        KPMG submits asset evaluation to PBGC
    January 2015        PBGC Asset Evaluation Division completes
                        quality control checks on KPMG asset evaluation
    February 2015       PBGC staff in financial operations and the
                        Benefits Administration and Payments
                        Department reconcile the amount and value of
                        the assets
    July 2015           Actuarial consulting firm (Bolton Partners DC
                        Inc.) submits its calculation of all individual
                        participant benefits
    August 2015         PBGC Actuarial Services Division completes
                        quality control on Bolton calculations
    September 2015      PBGC benefits staff transfers individual
                        participant benefits data into the system and
                        performs quality control on the transfer
    October 2015        PBGC’s Field Benefits contractors start issuing
                        Benefit Determination Letters and detailed
                        supporting Benefit Statements



1
  Our office evaluated PBGC’s processing of the National Steel and United Airlines pension plans
termination activities, focusing primarily on the quality of the plan asset valuations and participant data
audits. We found significant errors and deficiencies in the work performed by a contractor and overseen by
BAPD. As a result of these two reports, we issued – recommendations to correct the weaknesses and
improve operations. BAPD is still working on many of these corrective actions. See PBGC’s Plan Asset
Audit of National Steel Pension Plans Was Seriously Flawed, No.2011-10/PA-09-66-1, issued March 30,
2011 (http://oig.pbgc.gov/pdfs/PA-09-66-1.pdf), and PBGC Processing of Terminated United Airlines
Pension Plans Was Seriously Deficient, No.:2012-05/PA-10-72, issued November 30, 2011
(http://oig.pbgc.gov/pdfs/PA-10-72-1.pdf).



                                                     2                                                 LTR-2014-13
Letter to Congressman Turner
Delays in Delphi Salaried Plan
Page 3 of 8

PBGC cited several reasons for the delay:

         Delphi is the second largest plan termination in PBGC history
         Delphi investments are the largest and most complex investment pool in PBGC
          history. These pools are maintained by multiple third party custodians, upon
          which PBGC must rely for access to asset documentation
         BAPD previously has not had “federal staff trained to adequately process and
          oversee such a large and unique plan with its unique type of investment pool of
          assets and complexities.”
         BAPD contracted with a public accounting firm in 2011, but subsequently
          terminated its asset evaluation work due to concerns about quality. After a failed
          fixed price procurement effort, PBGC changed its approach to a labor-hour
          contract and awarded this work to KPMG in June 2013. KPMG’s work on the
          plan asset audit began in July 2013.

PBGC also provided us with the status of the five documents requested in the January 7,
2013 and April 9, 2014 FOIA requests (see table below).

Table 2 - Timeline for Completion of Key Documents Related to the Delphi Salaried
Plan

    COMPLETION DATE             DOCUMENT                                             START
                                                                                     DATE
    April 30, 2013           Participant Data Report                                 August 2009
    October 31, 2014         Recovery Valuation and Allocation Memo                  June 2014
                     2
    February 2015            Plan Asset Audit                                        July 2013
    August 31, 2015          Actuarial Case Memo                                     February 20153
    August 31, 2015          Actuarial Case Report                                   February 20154

PBGC noted that members of the public can submit FOIA requests to PBGC’s Disclosure
Office; that office will determine whether the document can be released, in whole or in
part.


2
  After the Plan Asset Audit is completed in February 2015, PBGC stated it will need to be reconciled by
the Financial Operations Department in the Office of the Chief Financial Officer.
3
 The Actuarial Case Memo is started after the Plan Asset Audit data is reconciled by the Financial
Operations Department. No completion date was provided for this reconciliation.
4
 The Actuarial Case Report is started after the Plan Asset Audit data is reconciled by the Financial
Operations Department. No completion date was provided for this reconciliation.




                                                     3                                                 LTR-2014-13
Letter to Congressman Turner
Delays in Delphi Salaried Plan
Page 4 of 8

PBGC Deadline Requires Complete Precision, Gives No Flexibility

To evaluate PBGC’s written response to our inquiry, we met with senior BAPD leaders
and managers who will be tasked with executing BAPD’s plan for processing the
Salaried Plan. Multiple officials told us that the timeline leaves no room for slippage or
delay. In order for PBGC to achieve its stated milestones, all preceding steps must occur
on time. They also acknowledged two other significant risks to the timeline:

          The ability of General Motors Asset Manager (GMAM) to provide information
           about the more than 4,000 different types of assets to BAPD’s asset evaluation
           contractor KPMG.5 
            
          The ability of KPMG to devote enough resources to the asset evaluation,6 in
           particular enough auditors to develop work papers and documentation – this has
           been a noted deficiency in other OIG reviews of BAPD contracted work. 

In our conversations with BAPD personnel, we identified other risks to the current
process. There are three phases to the testing. Phases I and II began in March 2014 and
were for the easy to value assets – funds with audited financial statements, Common
Collective Trusts internal only to GM. At this point, BAPD told us these phases remain
incomplete because KPMG does not have all the information from GMAM. The data
request for Phase III of testing which is for the hard to value assets was just made in mid-
July 2014.

Per PBGC’s contract with KPMG,7 BAPD has “reasonable access to the contractor’s
workpapers on an ongoing basis to facilitate (1) understanding of the evaluations, its
progress, conclusions, results, and (2) timely issuance of reports. All of the contractor’s
workpapers must be available for review when the draft reports are submitted.” What is
particularly concerning to us is that as of August 20, 2014, PBGC has not yet obtained a
single work paper from any of the three phases of test work, even for the easy to value
assets for which work began in March 2014. BAPD told us that the work papers must go
through KPMG’s internal review process before they can be submitted to PBGC. It
would seem that BAPD missed an opportunity to access and review work papers to both
refine its internal process and provide meaningful feedback to KPMG. Although BAPD
is conducting multiple weekly conference calls with KPMG and GMAM, OIG believes
BAPD should have exercised its ability to access work papers on an ongoing basis.

At this point, BAPD believes that it should be able to review Phase I and II testing (easy
to value assets) in August and September and Phase III testing (hard to value assets) in

5
    BAPD estimates that 75% of the information has been provided by GMAM to date.
6
    BAPD had a conference call with KPMG in late August to discuss staffing levels.
7
    From contract # GS-23F-8127H, order #PBGC01-DO-13-0042, Section 10.8 Workpapers.



                                                      4                                  LTR-2014-13
Letter to Congressman Turner
Delays in Delphi Salaried Plan
Page 5 of 8

October when KPMG delivers its draft report to PBGC. BAPD has essentially three
months – November 2014 to January 2015 – to complete its quality control checks on
KPMG’s work, resolve the back-and-forth that occurs during a rigorous quality review,
and obtain a final, signed asset evaluation report from KPMG. Given that no reviews of
KPMG work have yet begun, it is uncertain whether BAPD’s Asset Evaluation Division
(AED) will be

         practiced in its own processes and have the opportunity to assess its skills,
          capabilities and resource needs and  
         able to conduct robust and thorough reviews  

Historically, we have found at PBGC a tendency to accept contractor work at face value
based on the professional reputation of a vendor, especially when it is conducted by a
premier, nationally-known firm. Given the visibility of this work and PBGC’s stated
commitment to accelerating actions, we are concerned that deadlines for the asset
evaluation will be met (otherwise, the BDL’s will not be issued on schedule) but at the
risk of a robust quality review.

PBGC Deadline Achievable, Challenges Remain

Noting the above the timeline dependencies and risks, OIG believes that the October
2015 deadline PBGC has set to begin issuing the Delphi Salaried final benefit
determinations could be met. We note that when PBGC contracted with KPMG to
conduct the asset evaluation of the United Airlines pension plans which had been
unsuccessfully performed by two prior contractors, the OIG conducted a limited review
of that work. During that review we tested $6 billion of approximately $21 billion assets.
For the assets tested, we concluded that: “PBGC’s latest contractor [KPMG] had properly
valued the assets at the fair market value at the date of plan termination.”8 We also noted
the recurring issue with contractor oversight and acceptance of deliverables which do not
meet contract requirements – issues for which AED, in part, was created to address.

However, we also believe the schedule is ambitious because BAPD is concurrently
executing so many different other high-priority activities.

         BAPD has been processing a backlog of work that occurred due to a lack of
          trained personnel with the skills to conduct asset audits.  
          BAPD has been and continues to undergo significant restructuring as a result of
          analysis performed by a national consulting firm to help align organization
          structure with mission and responsibilities. The changes are occurring throughout
          the department and require a considerable amount of time to fully execute. 
           


8
    Letter to Congressman George Miller, February 6, 2013. http://oig.pbgc.gov/pdfs/LTR_2013-09.pdf




                                                    5                                                 LTR-2014-13
Letter to Congressman Turner
Delays in Delphi Salaried Plan
Page 6 of 8

      BAPD is undertaking several major information technology systems
       modernization efforts. 
        
      The recently-formed AED was established to conduct plan asset evaluations and
       compliance reviews. BAPD stated it has personnel to implement industry-based
       procedures and standards for valuing assets. AED’s new procedures and
       personnel will be tested with handling current work while conducting quality
       review of the complex Delphi asset evaluation.  

      BAPD is in the midst of developing and implementing corrective actions resulting
       from recommendations in OIG performance audits and the annual financial
       statement audits These recommendations relate to systemic issues found in
       PBGC’s processing of plan terminations – see Appendix A for a sample of
       recommendations. Some of these outstanding recommendations support a
       Material Weakness in PBGC’s adverse opinion on internal control issued as part
       of the financial statement audit. The PBGC Board of Directors is focusing
       significant attention on PBGC’s corrective actions to address the Material
       Weakness. 


With the emphasis on the Delphi termination, BAPD will be tested to prove that its new
structure and procedures are in place and able to operate effectively. Further, though
BAPD is expecting to resolve several OIG recommendations later this year and
throughout 2015, it remains to be seen if BAPD will be able to implement and
institutionalize change and provide evidence to OIG of improved performance in this
time of intense change. Finally, we also are concerned whether the attention to the
Delphi Salaried Plan will come at the expense of other plans in the pipeline.

Notwithstanding our concerns, we applaud PBGC for taking action to improve BAPD’s
organization, capabilities, and processes and look forward to assessing its progress when
the agency formally submits to us notification that it has addressed OIG
recommendations.




                                            6                                          LTR-2014-13
Letter to Congressman Turner
Delays in Delphi Salaried Plan
Page 7 of 8

We appreciate the opportunity to assist you in addressing this important issue for plan
participants in the Delphi Retirement Program for Salaried Employees. We would be
happy to meet with your staff, at your request. Alternatively, please feel free to have a
member of your staff contact me at (202) 326-4000, x3437, if there is any additional
information we can provide.

Respectfully Submitted,




Deborah Stover-Springer
Acting Inspector General


cc:
The Honorable John A. Boehner, Speaker of the House
The Honorable Rob Portman, United States Senator
The Honorable Steve Stivers, United States Representative
The Honorable Pat Tiberi, United States Representative
The Honorable Steve Chabot, United States Representative
The Honorable Bill Johnson, United States Representative
The Honorable Bob Latta, United States Representative
The Honorable Brad Wenstrup, United States Representative
The Honorable Bob Gibbs, United States Representative
The Honorable Bill Jim Renacci, United States Representative
The Honorable David Joyce, United States Representative
The Honorable Jim Jordan, United States Representative




                                             7                                          LTR-2014-13
Letter to Congressman Turner
Delays in Delphi Salaried Plan
Page 8 of 8

APPENDIX A: Sample of OIG Recommendations for BAPD
Report                    Recommendation                                                Agency Due Date

PBGC Processing of        Elevate the compliance function for post termination          September 2014
Terminated                audits and evaluations to promote objectivity and provide
United Airlines Pension   a greater emphasis on compliance with standards and
Plans was                 audit /evaluation quality. The unit's organizational
Seriously Deficient       placement should encourage independence of thought and
(issued Nov 2011)         action for the compliance unit; until quality issues in
                          BAPD have been resolved, the compliance function
                          should report directly to the highest levels of PBGC
                          management. (PBGC-14)
PBGC Processing of        Ensure that PBGC employees and contract personnel who         September 2014
Terminated                conduct and review post termination audits and
United Airlines Pension   evaluations have the necessary knowledge, skills, and
Plans was                 abilities by requiring continuing professional education
Seriously Deficient       and that at least some team leaders and managers have
                          enhanced qualifications, such as a CPA designation or
                          credible audit experience gained outside of BAPD.
                          (PBGC-12)
PBGC Processing of        As part of the on‐going strategic review, develop and         September 2015
Terminated                implement processes to ensure that post‐termination
United Airlines Pension   participant audits are done in accordance with applicable
Plans was                 standards and in a manner that provides the appropriate
Seriously Deficient       level of assurance. (PBGC-20)
PBGC’s Plan Asset         Develop and maintain a process to share "lessons learned"     September 2014
Audit of National Steel   and best practices in a formal and consistent manner to
Pension Plans was         ensure that all appropriate personnel become aware of best
Seriously Flawed          practices and are able to use them in future audits.
(issued March 2011)       (BAPD-82)
PBGC’s Plan Asset         Enhance and formalize training efforts for auditors to        September 2014
Audit of National Steel   better guide them on appropriate planning, risk
Pension Plans was         assessment, and scope of procedures to be performed as
Seriously Flawed          part of the audit program. Further, enhanced training on
                          illiquid investments, fiduciary breaches, and other special
                          situations should be provided. (BAPD-81)
Report on Internal        Improve the training of persons tasked with the               September 2014
Controls Related          calculation and review of benefit determinations to ensure
to the Pension Benefit    their skills are matched with the complexities of the tasks
Guaranty                  assigned. (FS-11-12)
Corporation's Fiscal
Year 2011 and
2010 Financial
Statement
(issued Nov 2011)




                                                   8                                                 LTR-2014-13
